                               O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity



Ins pe ctor Ge ne ral



South w e s t TacticalO pe rations Pl

                                    an: Inve s tigative Re s ul
                                                              ts


A ttach e d is th e Ins pe ctor Ge ne ral
                                        's finalre port e ntitle d, “
                                                                    South w e s t Tactical
O pe rations Pl  an: Inve s tigative Re s ults ”(A -06-9 7-22008). Th e re port pre s e nts th e
re s ults of th e South w e s t TacticalO pe rations Pl    an and our re vie w of ch aracte ris tics
s h are d by re cipie nts w h os e paym e nts w e re s us pe nde d. W e h ave adde d a finding
and m odifie d th e re com m e ndations for cl      arification purpos e s bas e d on com m e nts
w e re ce ive d during th e e xit confe re nce .

You m ay w is h to com m e nton any furth e r action tak e n or conte m pl   ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , pl e as e provide your com m e nts
w ith in th e ne xt60 days . Ifyou w is h to dis cus s th e finalre port, ple as e cal
                                                                                     lm e or
h ave your s taff contact Pam e l a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit,
at (410)9 65-9 700.




                                          D avid C. W il
                                                       liam s

A ttach m e nt
cc:

O IG/ES

Re ading Fil

            e
           e
Subje ct Fil
SSA /O IG/O A /BPA TTISO N/m js /03/31/9 8
9 7-22008.fnl  :Re port Fil
                          e
                     E X E CUTIVE S U M M A R Y 


O BJECTIVES

O ur obje ctive s w e re to (1)provide inform ation on th e re s ults of th e South w e s t
TacticalO pe rations Pl   an (STO P) and (2)ide ntify ch aracte ris tics of individuals who
provide d fal s e inform ation to obtain Supple m e ntalSe curity Incom e (SSI).

BACKGROUND

SSIh as s pe cific e ligibility re q uire m e nts . O ne of th e prim ary re q uire m e nts is th at
individual  s m us t be U.S. re s ide nts , and e ith e r citize ns , national  s , or e l
                                                                                         igibl
                                                                                             e alie ns .
(Th e form e r s tandards unde r titl   e XVIof th e SocialSe curity Act provide d SSI to
alie ns law ful ly adm itte d for pe rm ane nt U.S. re s ide nce ;or al    ie ns pe rm ane ntl y
re s iding in th e Unite d State s unde r col    or of law . Se ve ralre ce nt l   aw s and
am e ndm e nts h ave m ade ch ange s to th e SSIal        ie n program .1) In addition,
individual  s m us t m aintain a continue d pre s e nce in th e Unite d State s .2

SocialSe curity Adm inis tration (SSA )s taff in fie l     d office s (FO )al ong th e
U.S.-M e xico borde r h ave al  le ge d th at individual  s are q ual ifying for SSIw h ile in th e
Unite d State s and s ubs e q ue ntly m ove to a fore ign country. Ifnot de te cte d,
re cipie nts w illcontinue re ce iving paym e nts for w h ich th e y are not e l  igible . Th e
SSA O ffice of th e Ins pe ctor Ge ne ral(O IG)im pl     e m e nte d STO P in ElPas o, Te xas , to
de te rm ine if individual
                         s are fraudul    e ntl
                                              y re ce iving SSIpaym e nts .

W e re q ue s te d an e xtract of data from th e Suppl          e m e ntalSe curity Re cord (SSR), th e
data bas e SSA u s e s to m aintain inform ation on SSIre cipie nts . W e s e l              e cte d al
                                                                                                      lSSI
re cipie nts w ith a m ail   ing addre s s in th e 79 9 01 and 79 9 12 Z IPcode s of
ElPas o, Te xas . A l     e tte r w as s e nt to th e s e re cipie nts re q ue s ting th at th e y provide ,
by m ail   , docum e nts to prove th at th e y are U.S. re s ide nts . Any individualw h o did
not provide docum e ntation, provide d ins ufficie nt docum e ntation, or h ad a
q ue s tionabl   e addre s s w as inve s tigate d to e s tabl   is h re s ide ncy. W e us e d data
anal  y s is s oftw are program s to anal     yze th e col   le cte d data.



1
    Publ
       ic Law 104-19 3;Publ
                          ic Law 104-208;Publ
                                            ic Law 105-18, and Publ
                                                                  ic Law 105-33.

2
  A ccording to th e Program O pe rations M anualSyste m , an individualw h o is not in th e
                                                                                                       igibl
Unite d State s for 30 cons e cutive days is cons ide re d outs ide of th e Unite d State s and is ine l   e for
SSIuntilh e or s h e is in th e Unite d State s for 30 cons e cutive days (SI00501.410).


                                                       i
FIND INGS

• NEA R LY A LLRECIPIENTS RESPO ND ED TO STO P LETTER

• M O RE TH A N O NE-FO URTH O F RECIPIENTS W ERE INVESTIGATED

• O NE-FO URTH O F INVESTIGATED RECIPIENTS H A D PA Y M ENTS SUSPEND ED
  SAVING O VER $2.9 M ILLIO N

• SUSPEND ED RECIPIENTS SH ARE CO M M O N CH ARACTERISTICS

• M O RE TH A N O NE-H A LF O F SUSPEND ED RECIPIENTS EXH IBITED FO UR O R
  M O RE CH ARACTERISTICS

CO NCLUSIO N AND RECOMMENDATIO NS

W e ide ntifie d a varie ty of ch aracte ris tics as s ociate d w ith th e individual s SSA
s us pe nde d bas e d on our inve s tigative re s ul  ts . A m ajority of s us pe nde d re cipie nts
e xh ibite d four or m ore of th e s e ch aracte ris tics . W e re cognize th at nonre s ide nt
cl aim ants and re cipie nts from oth e r FO s m igh t e xh ibit diffe re nt ch aracte ris tics or
com binations and/or fre q ue ncie s of th e s am e ch aracte ris tics . H ow e ve r, our
findings s ugge s t th at it is pos s ibl
                                        e to de ve l op indicators of nonre s ide nts . Th is ,
com bine d w ith th e num be r of th e STO P-re l    ate d s us pe ns ions and th e re s ul
                                                                                          ting
$2,9 32,516 in cos t s avings bas e d on a 5-ye ar proje ction,3 s ugge s ts th at SSA ’        s
e fforts are w e lls pe nt on trying to ide ntify nonre s ide nts . Th e re fore , w e
re com m e nd th at SSA :

• de ve l
        op guidance on us ing l   ocally de te rm ine d ch aracte ris tics w h ich w ould
  w arrant in-de pth inve s tigation to accurate l y de te rm ine re s ide ncy s tatus ;

• diary cas e s of re cipie nts w h os e ch aracte ris tics indicate th e y are l   ik e ly to
  be com e nonre s ide nts or w h o are prone to pe riods of abs e nce from th e Unite d
  State s for fol  l
                   ow -up contacts (e .g., te l     e ph one cal l
                                                                 s to th e s tate d re s ide nce to
  de te rm ine if th e re cipie nt is s til
                                          lre s iding th e re );and

• conduct face -to-face re de te rm inations w ith re cipie nts w h os e ch aracte ris tics
  s ugge s t th at th e y m igh t be nonre s ide nts or prone to pe riods of abs e nce from
  th e Unite d State s .

3
    Th e cos t s avings are bas e d on th e totalof ove rpaym e nts m ade to s us pe nde d re cipie nts com bine d
w ith w h at SSA w oul                                     s ove r a 5-ye ar pe riod h ad w e not ide ntifie d th e
                            d h ave paid th e s e individual
re s ide ncy is s ue s . Th e actualcos t s avings m ay be l  e s s if individual
                                                                                s are abl e to re -e s tabl
                                                                                                          is h
re s ide ncy and again re ce ive SSI. Se e A ppe ndix B for gre ate r de tailon h ow w e de ve l       ope d th e cos t
s avings .


                                                           ii
AGENCY CO M M ENTS

SSA agre e s w ith our re com m e ndations and pl          ans to im pl  e m e nt th e m . Th e A ge ncy
s tate d th at te ch niq ue s ide ntifie d in th is re port and oth e r re s ide ncy s tudie s w il
                                                                                                  lbe
us e d to de ve l op re cipie nt ch aracte ris tics . Th e s e ch aracte ris tics m ay be h e l pful
local  l
       y in de te rm ining if re cipie nts are re s ide nts and profil   ing th os e w h o s h ould
re ce ive face -to-face re de te rm inations in orde r to e s tabl   is h and/or ve rify re s ide ncy.




                                                   iii
                      TA BLE O F CO NTENTS


                                                                                                  Page

EXECUTIVE SUM M A RY ..........................................................................i

INTRO D UCTIO N ...................................................................................1

FIND INGS............................................................................................5

    � NEARLY ALLRECIPIENTS RESPO ND ED TO STO P LETTER .................5

    �	 M O RE TH A N O NE-FO URTH O F RECIPIENTS W ERE
        INVESTIGATED ...........................................................................6

    �	 O NE-FO URTH O F INVESTIGATED RECIPIENTS H A D PA Y M ENTS
        SUSPEND ED SAVING O VER $2.9 M ILLIO N......................................7

    �	 SUSPEND ED RECIPIENTS SH ARE CO M M O N
        CH ARACTERISTICS .....................................................................7

    �	 M O RE TH A N O NE-H A LF O F SUSPEND ED RECIPIENTS
        EXH IBITED FO UR O R M O RE CH ARACTERISTICS............................12

CO NCLUSIO N AND RECO M M END A TIO NS .............................................14

A PPEND ICES

A ppe ndix A - SSA ’
                   s Com m e nts to D raft Re port

A ppe ndix B - Proje cte d Cos t Savings

A ppe ndix C - M ajor Re port Contributors

A ppe ndix D - SSA O rganizationalCh art
                              INTR O D UCTIO N


O BJECTIVES

O ur obje ctive s w e re to (1)provide inform ation on th e re s ults of STO P and
(2)ide ntify ch aracte ris tics of individual
                                            s w h o provide d fals e inform ation to obtain
SSI.

BACKGROUND

SSA adm inis te rs tw o program s unde r th e SocialSe curity Act--titl     e II(O ld-A ge ,
Survivors , and D is abil
                        ity Ins urance )and titl   e XVI(SSI). SSI, a ne e ds -bas e d
program , provide s as s is tance to age d, bl                 e d adul
                                                 ind, or dis abl      ts , and bl ind or
dis able d ch il
               dre n. SSIw as e s tablis h e d in 19 72 and w as inte nde d to aid individuals
w h o h ad l   e or no SocialSe curity cove rage .
            ittl

SSIEl
    igibil
         ity

SSIh as s pe cific e l igibility re q uire m e nts . O ne of th e prim ary e l igibility re q uire m e nts
is th at individual  s m us t be U.S. re s ide nts , and e ith e r citize ns , national  s or e ligibl e
alie ns . (Th e form e r s tandards unde r titl     e XVIof th e SocialSe curity Act provide d
SSI to al  ie ns law fully adm itte d for pe rm ane nt U.S. re s ide nce ;or al     ie ns pe rm ane ntl  y
re s iding in th e Unite d State s unde r col     or of law . Se ve ralre ce nt l aw s and
am e ndm e nts h ave m ade ch ange s to th e SSIal         ie n program .) In addition,
individual   s m us t m aintain a continue d pre s e nce in th e Unite d State s .

Succe s s full
             y obtaining SSIas s is tance ge ne ral      ly brings autom atic e l
                                                                                igibil
                                                                                     ity to
M e dicaid, Food Stam ps , and oth e r Fe de raland State program s . Since it is an
e ntry point for re ce iving oth e r as s is tance , th e im pact of individuals fraudul e ntl
                                                                                             y
re ce iving SSIis far-re ach ing.

SSA FO A l
         le gations

SSA s taff in FO s al    ong th e U.S.-M e xico borde r h ave al  le ge d th at individuals are
q ual ifying for SSIw h il  e in th e Unite d State s and s ubs e q ue ntly m ove to a fore ign
country. Ifnot de te cte d, re cipie nts w il  lcontinue re ce iving paym e nts for w h ich
th e y are not e l  igibl
                        e . An O IG re port on an SSA initiative in Ch ul     a Vis ta, California,
dis cl os e d th at 47.2 pe rce nt of th e SSIre cipie nts th at SSA s taff re fe rre d for




                                                    1

re s ide ncy ve rification w e re found ine l       e be caus e th e y w e re re s iding in M e xico.4
                                                igibl
W h il e probl e m s s im il
                           ar to th is m igh t be occurring in oth e r are as of th e Unite d
State s , it is b e l
                    ie ve d to be m os t pre val e nt al
                                                       ong th e U.S.-M e xico borde r.

O IG Pil
       ot Proje ct

Th e SSA O IG im pl     e m e nte d STO P in ElPas o, Te xas , to de te rm ine if individual s are
fraudul  e ntl
             y re ce iving SSIpaym e nts . Th e pil
  ot proje ct w as inte nde d to ide ntify,
s us pe nd, and te rm inate SSIas s is tance to re cipie nts re ce iving paym e nts bas e d on

fraudul  e nt s tate m e nts re garding re s ide ncy. O IG al
                                                            so l ook e d at oth e r e l
                                                                                      igibil
                                                                                           ity
factors , incl  uding:

    •   age ,
    •   dis ability,
    •   citize ns h ip,
    •   type of re s ide nce ,
    •   incom e , and
    •   re s ource s .

Th e pilot proje ct incl  ude d: (1)a m ail   e r ope ration re q ue s ting th at individuals m ailin
proof of re s ide ncy;and (2)a m atch ing ope ration w ith th e U.S. Im m igration and
Natural  ization Se rvice and th e Te xas Bure au of VitalStatis tics to val         idate SSA data
re l
   ate d to citize ns h ip, al
                             ie n s tatus , and birth re cords .

Both O IG O ffice s of Inve s tigations (O I)and Audit (O A )w ork e d on th e pil       ot proje ct.
O Iprim aril y w as re s pons ibl e for inve s tigating q ue s tionable cas e s (e .g., pote ntial
nonre s ide ncy) th at aros e as a re s ul  t of th e re vie w ;O A prim aril
                                                                            y w as re s pons ibl e
for anal yzing th e outcom e s of th e individualinitiative s of th e pil     ot proje ct
            e r ope ration, th e im pact on th e SSA FO ). Bas e d on th e s e e fforts , th e
(e .g., m ail
O IG w illde te rm ine th e us e fulne s s of s uch an e ffort in oth e r l
                                                                          ocations .




4
  SSA/O IG, Th e A d e q uacy of th e Re s ide ncy Ve rification Proce s s for th e Suppl
                                                                                        e m e ntalSe curity
Incom e Program , A -06-9 6-62001, M ay 19 9 7, page 5.



                                                       2

Proje ct Location

W e sel  e cte d th e ElPas o FO as th e
pilot proje ct s ite be caus e of its
proxim ity to th e U.S.-M e xico borde r.
ElPas o, a city of approxim ate l     y
652,000, s h are s its city borde r w ith
th e M e xican borde r. D ire ctl  y acros s
th e Rio Grande (conne cte d by various
foot and autom obil     e bridge s )is
Ciudad Juare z, M e xico, a city of
approxim ate l   y 1.2 m ilion. Th e re l
                           l             ative
e as e of trave lbe tw e e n th e tw o citie s
h as re s ulte d in m any pe opl e
ide ntifying ElPas o and Ciudad Juare z
as one l   arge city. SSA s taff and
ElPas o re s ide nts w ith w h om w e s pok e be l  ie ve d re s ide ncy ch oice s ofte n are bas e d
on cos t and proxim ity to fam il    y and frie nds rath e r th an th e de s ire to live in a
s pe cific country. Th e re fore , SSA s taff h ave s ugge s te d th at s om e ElPas o SSI
re cipie nts m ay not be m e e ting th e re s ide ncy re q uire m e nts .

M ETH O D O LO GY

W e re q ue s te d an e xtract of data from th e SSR, th e data bas e SSA u s e s to
m aintain inform ation on SSIre cipie nts . W e s e l      e cte d al
                                                                    lSSIre cipie nts w ith a
m ail
    ing addre s s in th e 79 9 01 and 79 9 12 Z IPcode s of ElPas o, Te xas . Th e s e Z IP
code s w e re s e le cte d judgm e ntal ly to addre s s a varie ty of factors , incl uding
proxim ity to th e U.S.-M e xico borde r, as s um e d h ous e h ol   d incom e l e ve l
                                                                                      s , th e nature
and num be r of al    l
                      e ge d nonre s ide nt re cipie nts , and th e num be r of re cipie nts in th e
finals am pl  e.

W e col   le cte d data from Nove m be r 19 9 6 th rough Fe bruary 19 9 7. A l        e tte r w as
s e nt to re cipie nts re q ue s ting th at th e y provide , by m ail
                                                                    , docum e nts to prove th at
th e y are U.S. re s ide nts . Any individualw h o did not provide docum e ntation,
provide d ins ufficie nt docum e ntation, or h ad a q ue s tionabl      e addre s s w as
inve s tigate d to e s tabl  is h re s ide ncy. W e us e d data analy s is s oftw are program s to
anal  yze th e col  le cte d data. Since th e prim ary focus of STO P w as to ve rify
re s ide ncy, w e did not de te rm ine w h e th e r re cipie nts w oul d re m ain e ligible bas e d on
re ce ntl y e nacte d or propos e d l     e gis l
                                                ative ch ange s .




                                                  3

Th is re port is one in a s e rie s of re ports re l
                                                   ate d to STO P. Additionalre ports focus
on th e de m ograph ic ch aracte ris tics of s am pl   e d re cipie nts , th e im pact of STO P on
FO ope rations , and a pl   anne d fol  low -up re vie w l  ook ing at th e future paym e nt
s tatus of s us pe nde d re cipie nts . Th is ins pe ction w as conducte d in accordance w ith
th e Q uality Standards for Ins pe ctions is s ue d by th e Pre s ide nt's Councilon Inte grity
and Efficie ncy.




                                                4

                                         FIND INGS


                                         STO P RESULTS

NEARLY A LLRECIPIENTS RESPO ND ED TO STO P LETTER

O f th e 2,107 SSIre cipie nts to w h om w e s e nt l  e tte rs , w e incl
                                                                         ude d
2,089 (9 9 .1 pe rce nt)in our re s ide ncy re vie w . Th e re m aining 18 re cipie nts
(0.9 pe rce nt)w e re no l  onge r e l
                                     igible for SSIand w e re e xcl    ude d from our re vie w .
Re as ons for th e ir e xcl
                          us ion are s h ow n be l
                                                 ow .

                                     Tabl
                                        e 1: Re cipie nts Excl
                                                             ude d From STO P

          Re as on Excl
                      ude d from Re vie w                      Num be r Excl
                                                                           ude d from Re vie w
    D ie d                                                                   10
    Exce s s Incom e or Re s ource s                                          4
    In Pris on                                                                3
    Not D is abled                                                            1

Forty-Five Pe rce nt of Re cipie nts or Th e ir Re pre s e ntative s Re s ponde d to th e STO P
Le tte r In-Pe rs on

Al th ough th e STO P l     e tte r re q ue s te d re cipie nts or th e ir re pre s e ntative s to m ailth e ir
re s pons e , 45.2 pe rce nt of th e cas e s re s ul      te d in an initialface -to-face contact w ith
re cipie nts or th e ir re pre s e ntative s . Th e STO P w ork e rs col       le cte d and re vie w e d
docum e ntation and inte rvie w e d th e s e individual          s . For th os e providing
docum e ntation th rough th e m ail          , STO P w ork e rs did not inte rvie w th e re cipie nts or
th e ir re pre s e ntative s unl e s s th e y fail e d to provide ade q uate docum e ntation.

                      Tabl
                         e 2: Type of InitialContact in Re s pons e to M ail
                                                                           er

                  InitialContact          Num be r of Cas e s        Pe rce ntage of Cas e s
               M ail                                   1,105                           52.9
               O ffice Vis it                            9 44                          45.2
               Ph one                                      18                            0.9
               No Contact                                  22                            1.0
               Total                                   2,089                          100.0




                                                       5

M os t Re cipie nts or Th e ir Re pre s e ntative s Provide d Re nt and Util
                                                                           ity Re ce ipts to
Ve rify Re s ide ncy

In orde r to s upport th e ir cl
                               aim of re s ide ncy, w e re q ue s te d th at th e s e re cipie nts
provide , by m ail , e vide nce of th e ir U.S. re s ide ncy for th e pas t ye ar. Th e type s of
e vide nce w e as k e d for include d:

         (1) prope rty, incom e , or oth e r tax paym e nt re cords ;
         (2) util
                ity bil
                      ls, l
                          e as e s , or re nt paym e nt re cords ;and
         (3) docum e nts th at s h ow participation in s ocials e rvice program s .

O f th e 2,089 s am pl  e d re cipie nts , 1,9 22 (9 2.0 pe rce nt)provide d one or m ore
docum e nts to s upport th e ir re s ide ncy. Re nt and/or util    ity re ce ipts w e re provide d
m os t ofte n as re s ide ncy-s upporting docum e nts . O f th e 1,9 22 re cipie nts providing
docum e nts , 1,309 (68.1 pe rce nt)provide d re nt re ce ipts and 1,060 (55 pe rce nt)
provide d util ity re ce ipts .

M O RE TH AN ONE-FO URTH O F RECIPIENTS W ERE INVESTIGATED

W e cons ide re d 661 (31.6 pe rce nt)re cipie nts for furth e r inve s tigation bas e d on
th e ir re s pons e --645 be caus e th e y provide d inade q uate docum e ntation to s upport
th e ir re s ide ncy or h ad a q ue s tionabl
                                            e addre s s and 16 be caus e th e y w e re ove r age
     5
80. Prior to conducting th e inve s tigations , 65 re cipie nts or th e ir re pre s e ntative s
provide d e vide nce to s upport re s ide ncy. Th e re fore , e xcl   uding th e re cipie nts
re fe rre d s trictl                                                  y provide d
                    y bas e d on age and th os e th at s ubs e q ue ntl
docum e ntation, w e inve s tigate d 580 re cipie nts (27.8 pe rce nt)due to re s ide ncy
conce rns .

Th e M os t Fre q ue ntl
                       y State d Re as on for Inve s tigation W as Ins ufficie nt Evide nce of
Re s ide ncy

O f th e 580 inve s tigate d re cipie nts , 304 (52.4 pe rce nt)w e re inve s tigate d bas e d on
th e ir fail
           ure to provide s ufficie nt e vide nce to s upport th e ir re s ide ncy. O th e r
re as ons incl ude d re cipie nts initial
                                        ly fail
                                              ing to re s pond to our l  e tte r (116 or
20.0 pe rce nt), pre l im inary findings of re s ide ncy is s ue s (83 or 14.3 pe rce nt),
q ue s tionable addre s s e s (74 or 12.8 pe rce nt), and oth e r (3 or 0.5 pe rce nt).




5
   W e found th e 16 re cipie nts inve s tigate d be caus e of age to be al      ive . W e h ad de te rm ine d th at th e y
w e re re s ide nts of th e Unite d State s bas e d on th e ir re s pons e s to our le tte r.


                                                            6

O NE-FO URTH O F INVESTIGATED RECIPIENTS H A D PAYM ENTS
SUSPEND ED SAVING O VER $2.9 M ILLIO N

O f th e 580 re cipie nts inve s tigate d, 153 (26.4 pe rce nt--or 7.3 pe rce nt of total
re vie w e d popul ation) fail
                             e d to m e e t re s ide ncy re q uire m e nts . Sus pe nding th e s e
individual   s produce d a proje cte d 5-ye ar cos t s avings of $2,9 32,516 in SSI
paym e nts . Th e re as ons w h y paym e nts w e re s us pe nde d for th e s e 153 individual      s
are s h ow n be l ow .

                           Tabl
                              e 3: Re as ons SSI Paym e nts Suspended

          Re as ons Paym e nts             Num be r of Sus pe nde d       Pe rce nt of Sus pe nde d
                Sus pe nde d                      Re cipie nts                    Re cipie nts
    Re cipie nts Residing Outs ide                   134                            87.6
       th e Unite d State s
    Re cipie nt not in th e Unite d                      16                         10.4
       State s for 30 Continuous
       D ay s
    Fail
       ure to Re s pond to Le tte r                       3                           2.0




        CH ARACTERISTICS O F SUSPEND ED RECIPIENTS
W e re vie w e d avail    abl e SSA data on th e 153 re cipie nts w h os e SSIpaym e nts w e re
s us pe nde d to de te rm ine if ch aracte ris tics e xis te d th at coul
                                                                        d h ave l
                                                                                e d us to
q ue s tion th e ir re s ide ncy in th e Unite d State s and, in turn, conduct additional
re vie w s and/or inve s tigations . In th e re m ainde r of th e re port, w e dis cus s
ch aracte ris tics com m on to th e s e 153 STO P re cipie nts , as w e l   las ch aracte ris tics
STO P w ork e rs th ough t w oul      d be indicators of nonre s ide ncy prior to conducting
STO P.

SUSPEND ED RECIPIENTS SH ARE CO M M O N CH ARACTERISTICS

M ore Th an Th re e -Q uarte rs of Sus pe nde d Re cipie nts H ad No Face -to-Face
Re de te rm ination Inte rvie w w ith SSA in 2 or M ore Y e ars

O f th e s us pe nde d re cipie nts , 79 .8 pe rce nt h ad no face -to-face re de te rm ination
re vie w w ith SSA in 2 or m ore ye ars . Th is outcom e is not e ntire l           y une xpe cte d.
SSA proce dure s re q uire face -to-face re de te rm inations in s pe cific ins tance s onl         y
(e .g., cas e s th at m atch e s tabl  is h e d profile s )and th e s e re s ul
                                                                              ts are s im il
                                                                                           ar to th os e
of oth e r s am pl e d re cipie nts . H ow e ve r, l ack of face -to-face contact be tw e e n SSA
and re cipie nts l  im its SSA’  s abil  ity to as ce rtain w h e th e r individual s re m ain


                                                    7

U.S re s ide nts . Table 4 s um m arize s th e l
                                               e ngth of tim e s ince s us pe nde d re cipie nts
l
as t h ad a face -to-face re de te rm ination w ith SSA .

                        Tabl
                           e 4: Las t SSA Face -To-Face Re de te rm ination Re vie w

        Ye ars Since Las t Face -To-Face              Num be r of Sus pe nde d          Pe rce nt of Sus pe nde d
                      Re vie w                               Re cipie nts                       Re cipie nts
    Le s s Th an 1 Ye ar                                           14                                9 .2
    1 Ye ar But Le s s Th an 2 Ye ars                              17                              11.1
    2 Ye ars But Le s s Th an 4 Ye ars                             29                              19 .0
    4 Ye ars But Le s s Th an 7 Ye ars                             17                              11.1
    7 Ye ars or M ore                                              76                              49 .7


M ore Th an Tw o-Th irds of Sus pe nde d Re cipie nts W e re M al
                                                                e

Al th ough m al e s accounte d for 41.7 pe rce nt of allre vie w e d re cipie nts , th e y
accounte d for 68.6 pe rce nt (105 out of 153)of re cipie nts w h os e paym e nts w e re
s us pe nde d. In addition, 12.0 pe rce nt of allm ale s h ad th e ir paym e nts s us pe nde d,
w h ile 3.9 pe rce nt of fe m al
                               e s did.

                                    Tabl
                                       e 5: Re cipie nts W h o Are M al
                                                                      e

                                                      Not
                           AllRe cipie nts       Inve s tigate d         Inve s tigate d          Sus pe nde d
    Ch aracte ris tic       (n=2,089 )            (n=1,509 )               (n=580)                 (n=153)
         M al
            e                 41.7%                 39 .1%                  48.6%                   68.6%
                             (n=872)               (n=59 0)                (n=282)                 (n=105)

Al
 m os t Tw o-Th irds of Sus pe nde d Re cipie nts H ave Code s Th at Re fl
                                                                         e ct A l
                                                                                ie n Status

O f th e 153 s us pe nde d re cipie nts , 64.1 pe rce nt h ave s tatus code s of “K ,”“P,”
“R,”or “S.” Each of th e s e code s re fl            ie n s tatus .6 In addition, 10.3 pe rce nt of
                                               e ct al
allre cipie nts w ith s tatus code s re fl e cting an al  ie n s tatus h ad th e ir paym e nts
s us pe nde d due to re s ide ncy is s ue s (9 8 of 9 53 re cipie nts ).




6
    Th e code s ’m e anings are as fol      low s : “K ”–Law ful   ly adm itte d to Unite d State s for pe rm ane nt
re s ide nce ;“ P”–A l   ie n w h o e nte re d th e Unite d State s be fore 1/1/72 w ith continuous re s ide nce s ince
th e n (pre s um e d le gal l
                            y adm itte d for pe rm ane nt re s ide nce );“ R”–A l                  e galte m porary
                                                                                     ie n grante d l
re s ide nt s tatus ;and “S”–A l      ie n grante d le galpe rm ane nt re s ide nt s tatus .


                                                          8

                     Tabl
                        e 6: Re cipie nts W ith “K ,”“
                                                     P,”“R,”and “S”A l
                                                                     ie n Code s

                                                Not
                         AllRe cipie nts   Inve s tigate d     Inve s tigate d       Sus pe nde d
Ch aracte ris tic         (n=2,089 )        (n=1,509 )           (n=580)              (n=153)
Se l
   e cte d Al ie n          45.6%             45.7%               45.3%                64.1%
     Code                  (n=9 53)          (n=69 0)            (n=263)               (n=9 8)

O ve r O ne -H al
                f of Sus pe nde d Re cipie nts H ad at Le as t O ne A ddre s s Ch ange

Addre s s ch ange s m ay indicate a l    ack of s tabil  ity in th e com m unity. Th is m ay
incre as e th e l    ih ood th at an individualm ay l
                ik e l                                    ive outs ide th e Unite d State s for a
pe riod of tim e . O f th e s us pe nde d re cipie nts , 59 .5 pe rce nt h ad addre s s ch ange s in
19 9 5 or 19 9 6.

                 Tabl
                    e 7: Re cipie nts W ith Addre s s Ch ange s in 19 9 5 and 19 9 6

                                                Not
 Ch aracte ris tic       AllRe cipie nts   Inve s tigate d     Inve s tigate d       Sus pe nde d
                          (n=2,089 )        (n=1,509 )           (n=580)              (n=153)
    Addre s s               48.4%             44.5%               58.8%                59 .5%
  Ch ange s in            (n=1,012)          (n=671)             (n=341)               (n=9 1)
 19 9 5 or 19 9 6

O ne -Fourth of Sus pe nde d Re cipie nts H ave D iffe re nt M ail
                                                                 ing and Re s ide nce
Addre s s e s

Re cipie nts m ay h ave diffe re nt m ail   ing and re s ide nce addre s s e s for a varie ty of
re as ons , incl  uding: (1)pre fe re nce for h aving m ailde l     ive re d to anoth e r pe rs on’s
re s ide nce , s uch as a pare nt or frie nd;(2)conce rn th at m ailm ay be s tol         e n from a
re s ide nce m ailbox;or (3)de s ire th at SSIpaym e nts are re ce ive d in a tim e l         y m anne r
(w h e n th e re cipie nt m ove s fre q ue ntly). H ow e ve r, h aving diffe re nt m ail ing and
re s ide nce addre s s e s al
                            s o m ay as s is t s om e re cipie nts in h iding th e fact th at th e y
are not U.S. re s ide nts .

Al th ough 6.2 pe rce nt of al   lre vie w e d re cipie nts h ave diffe re nt m ailing and
re s ide nce addre s s e s , 25.5 pe rce nt of al ls us pe nde d re cipie nts h ave th is
ch aracte ris tic. In addition, 39 of th e 68 inve s tigate d re cipie nts (57.4 pe rce nt)w h o
h ave diffe re nt re s ide nce and m ail  ing addre s s e s h ad th e ir paym e nts s us pe nde d.




                                                   9

Tabl
   e 8: Re cipie nts W ith Re s ide nce A ddre s s e s Th at A re D iffe re nt Th an M ail
                                                                                         ing Addre s s e s

                                                 Not
                      AllRe cipie nts       Inve s tigate d      Inve s tigate d       Sus pe nde d
Ch aracte ris tic      (n=2,089 )            (n=1,509 )            (n=580)              (n=153)
   D iffe re nt           6.2%                  4.1%                11.7%                25.5%
Re s ide nce and        (n=130)                (n=62)               (n=68)               (n=39 )
     M ailing
  Addre s s e s

Al
 m os t O ne -Fourth of Sus pe nde d Re cipie nts Live in A noth e r Pe rs on’
                                                                             s H ous e h ol
                                                                                          d

Re cipie nts re s iding in anoth e r pe rs on’  s h ous e h ol
                                                             d ofte n h ad l  ittl
                                                                                 e docum e ntation to
s upport th e ir re s ide ncy. Virtual  ly al ldocum e ntation avail    abl e w as in th e nam e of
th e ow ne r or prim ary re nte r of th e h ous e h ol d--not in th e re cipie nt’
 s nam e .
Th e re fore , w e inve s tigate d 69 .2 pe rce nt (108 out of 156)of th e s e re cipie nts .

A fte r conducting th e s e inve s tigations --s pe ak ing w ith ne igh bors , al   lo
                                                                                     
 w ing re cipie nts
to provide additionale vide nce --paym e nts w e re s us pe nde d for 34.2 pe rce nt (37 out
of 108)of th os e inve s tigate d w h o l    ive d in anoth e r pe rs on’ s h ous e h old. O ve ral l,
24.2 pe rce nt of al    ls us pe nde d re cipie nts ale ge d th e y w e re l
                                                      l                     iving in anoth e r
pe rs on’ s h ous e h old.

            Tabl
               e 9 : Re cipie nts W h o Al
                                         le ge d Living in A noth e r Pe rs on’
                                                                              s H ous e h ol
                                                                                           d

 Ch aracte ris tic    AllRe cipie nts            Not             Inve s tigate d       Sus pe nde d
                       (n=2,089 )           Inve s tigate d        (n=580)              (n=153)
                                             (n=1,509 )
Live in A noth e r         7.5%                 3.2%                18.6%                24.2%
    Pe rs on’ s          (n=156)               (n=48)              (n=108)               (n=37)
   H ous e h ol d

O ve r O ne -Fifth of Sus pe nde d Re cipie nts Re nte d Com m e rcialM ailBoxe s

SSA re q uire s th e s tre e t addre s s /l ocation of th e re s ide nce from any pe rs on us ing a
m ailbox as an addre s s . By m ak ing a com m e rcialm ailbox appe ar as a re s ide nce ,
th e re q uire m e nt is circum ve nte d and th e pos s ibil  ity of re cipie nts re ce iving
paym e nts fraudul     e ntly incre as e s . For e xam pl
e , w e found s e ve ralcas e s w h e re
re cipie nts us e d an addre s s s im il  ar to th e fol
                                                       low ing w h e n us ing a com m e rcialm ail

box:

                                    123 M ain Stre e t, Apt. 45
                                    ElPas o, TX 79 9 01




                                                   10

A s s h ow n in Table 10, 21.6 pe rce nt of al ls us pe nde d re cipie nts re nte d com m e rcial
m ailboxe s e ve n th ough only 8.1 pe rce nt of th os e inve s tigate d re nte d s uch boxe s .
In fact, 70.2 pe rce nt (33 out of 47)of th os e inve s tigate d w h o re nte d com m e rcial
m ailboxe s h ad th e ir SSIpaym e nts s us pe nde d.

          Tabl
             e 10: Re cipie nts W h o Re nt Com m e rcialM ailBoxe s to Re ce ive Th e ir M ail

                                                     Not
                        AllRe cipie nts         Inve s tigate d        Inve s tigate d         Sus pe nde d
    Ch aracte ris tic    (n=2,089 )              (n=1,509 )              (n=580)                (n=153)
       Re nting             3.2%                    1.3%                   8.1%                  21.6%
     Com m e rcial         (n=67)                  (n=20)                 (n=47)                 (n=33)
     M ailBoxe s

Alm os t O ne -Fifth of Sus pe nde d Re cipie nts W e re 69 Ye ars O l
                                                                     d or O l
                                                                            de r W h e n Th e y
A pplie d for SSI7

SSA s taff e xpre s s e d conce rn about individual       s w h o initiall
                                                                         y appl   ie d for SSIl  ate r
th an age 65. Th e y be l    ie ve d th at m os t individual s w h o w e re e ligibl  e w oul d appl  y
for SSIupon re ach ing age 65. Th e y concl           ude d th at individual  s appl    ying w e llafte r
age 65 w e re m ore l        y
                        ik e l  to  be  obt aining  SSI  fraudul e ntly.  H ow  e v e r, th e ove rall
pe rce ntage of inve s tigate d individual     s w h o w e re s us pe nde d (26.3 pe rce nt, or 152
out of 577)is onl    y sl  igh tly low e r th an th e pe rce ntage of inve s tigate d individual     s
ove r age 69 at tim e of SSIappl         ication w h o w e re s us pe nde d (30.3 pe rce nt, or 27
out of 89 ).

          Tabl
             e 11: Re cipie nts W h o W e re 69 or O l
                                                     de r at th e Tim e Th e y Appl
                                                                                  ie d for SSI

                                                     Not
                        AllRe cipie nts         Inve s tigate d        Inve s tigate d         Sus pe nde d
    Ch aracte ris tic    (n=2,070)               (n=1,49 3)              (n=577)                (n=152)
    69 or O l
            de r at        13.2%                   12.3%                  15.4%                  17.8%
       Tim e of           (n=273)                 (n=184)                 (n=89 )                (n=27)
     A pplication

Le s s th an O ne -Fifth of Sus pe nde d Re cipie nts Use D ire ct D e pos it

O ne m e th od for re cipie nts to re ce ive SSIor oth e r as s is tance w h il    e re s iding in a
fore ign country is to re q ue s t th at SSA “dire ct de pos it”th e ir ch e ck s into an
account at a financialins titution. A s s h ow n in Tabl          e 12, 15.7 pe rce nt of th e
s us pe nde d re cipie nts h ad th e ir ch e ck s dire ct de pos ite d. H ow e ve r, th is is low e r
th an th e ove ral lfigure of 18.0 pe rce nt for al     lre vie w e d re cipie nts and s ugge s ts

7
  Not al lre cipie nts h ad age inform ation. Th e re fore , num be rs of re cipie nts l
                                                                                       is te d in th e tabl
                                                                                                          e and
narrative for th is finding are le s s th an corre s ponding num be rs for oth e r findings .


                                                        11

th at oth e r ch aracte ris tics m ay pl
                                       ay a gre ate r rol
                                                        e in re s ide ncy fraud for th is
popul  ation.




                                                12

                                   Tabl
                                      e 12: Re cipie nts W ith D ire ct D e pos it

                                                          Not
                            AllRe cipie nts          Inve s tigate d          Inve s tigate d   Sus pe nde d
    Ch aracte ris tic        (n=2,089 )               (n=1,509 )                (n=580)          (n=153)
    D ire ct D e pos it        18.0%                    17.5%                    19 .1%           15.7%
                              (n=375)                  (n=264)                  (n=111)           (n=24)

Unde r O ne -Tw e ntie th of Sus pe nde d Re cipie nts H ad Prior Re s ide ncy Is s ue s

Al th ough re l  ative l
                       y s m allin num be r, w h at m ak e s th is s ignificant is th at
33.3 pe rce nt of al    lre cipie nts (7 out of 21), and 50 pe rce nt of th os e inve s tigate d
(7 out of 14), w h o h ad th e ir SSIpaym e nts s us pe nde d in 19 9 5 or 19 9 6 due to
re s ide ncy is s ue s again h ad th e ir SSIpaym e nts s us pe nde d.

                              Tabl
                                 e 13: Re cipie nts W ith Prior Re s ide ncy Is s ue s

                                                          Not
                            AllRe cipie nts          Inve s tigate d          Inve s tigate d   Sus pe nde d
 Ch aracte ris tic           (n=2,089 )               (n=1,509 )                (n=580)          (n=153)
Prior Re s ide ncy              1.0%                    0.5%                      2.4%             4.6%
     Is s ue s                 (n=21)                   (n=7)                    (n=14)            (n=7)

M O RE TH AN ONE-H A LF O F SUSPEND ED RECIPIENTS EXH IBITED FO UR
O R M O RE CH ARACTERISTICS

O f th e 153 s us pe nde d re cipie nts , 58.9 pe rce nt h ad 4 or m ore of th e
10 ch aracte ris tics ide ntifie d as indicators of nonre s ide ncy. H ow e ve r, our anal    y s is
of th e s e ch aracte ris tics did not point to a s ingl  e profil e (e .g., m ales l
                                                                                    iving in
anoth e r pe rs on’  s h ous e h ol
                                  d us ing dire ct de pos it and h aving a com m e rcialm ail
box). In contras t, onl      y 20.4 pe rce nt of al loth e r re cipie nts h ad four or m ore of th e
ch aracte ris tics .8




8
     No re cipie nts e xh ibite d m ore th an s e ve n totalch aracte ris tics .


                                                              13

            Tabl
               e 14: Re cipie nts W ith Sh are d Ch aracte ris tics

  Num be r of             Pe rce ntage of Sus pe nde d       Pe rce ntage of A l   l
Ch aracte ris tics                 Re cipie nts              O th e r Re cipie nts
        0                             0.0                              0.8
        1                             1.3                             14.9
        2                            15.0                             32.8
        3                            24.8                             31.1
        4                            30.1                             14.9
        5                            19 .6                             4.3
        6                             7.2                              1.0
        7                             2.0                              0.2




                                      14

  C O NCLU S IO N A N D R E C O M M E N D A TIO NS



W e ide ntifie d 10 ch aracte ris tics as s ociate d w ith th e individual s SSA suspended
bas e d on our inve s tigative re s ul ts . A m ajority of s us pe nde d re cipie nts e xh ibite d
four or m ore of th e s e ch aracte ris tics . W e re cognize th at nonre s ide nt cl  aim ants
and re cipie nts from oth e r FO s m igh t e xh ibit diffe re nt ch aracte ris tics or
com binations and/or fre q ue ncie s of th e s am e ch aracte ris tics . H ow e ve r, our
findings s ugge s t th at it is pos s ible to de ve l
                                                    op indicators of nonre s ide nts . Th is ,
com bine d w ith th e num be r of th e STO P-re l   ate d s us pe ns ions and th e re s ulting
$2,9 32,516 in cos t s avings bas e d on a 5-ye ar proje ction, s ugge s ts th at SSA ’        s
e fforts are w e lls pe nt on trying to ide ntify nonre s ide nts . Th e re fore , w e
re com m e nd th at SSA :

1. de ve l
         op guidance on us ing l   ocally de te rm ine d ch aracte ris tics w h ich w ould
   w arrant in-de pth inve s tigation to accurate l y de te rm ine re s ide ncy s tatus ;

2. diary cas e s of re cipie nts w h os e ch aracte ris tics indicate th e y are l    ik e ly to
   be com e nonre s ide nts or w h o are prone to pe riods of abs e nce from th e Unite d
   State s for fol  ow -up contacts (e .g., te l
                    l                                e ph one cal ls to th e s tate d re s ide nce to
   de te rm ine if th e re cipie nt is s til
                                           lre s iding at th e re s ide nce );and

3. conduct face -to-face re de te rm inations w ith re cipie nts w h os e ch aracte ris tics
   s ugge s t th at th e y m igh t be nonre s ide nts or prone to pe riods of abs e nce from
   th e Unite d State s .

AGENCY CO M M ENTS

SSA agre e s w ith our re com m e ndations and pl         ans to im pl   e m e nt th e m . (Se e
A ppe ndix A for th e ful    lte xt of SSA ’  s com m e nts .) Th e A ge ncy s tate d th at
te ch niq ue s ide ntifie d in th is re port and oth e r re s ide ncy s tudie s w il lbe us e d to
de ve lop re cipie nt ch aracte ris tics . Th e s e ch aracte ris tics m ay be h e l   pfull ocal ly in
de te rm ining if re cipie nts are re s ide nts and profil   ing th os e w h o s h oul  d re ce ive face -
to-face re de te rm inations in orde r to e s tabl   is h and/or ve rify re s ide ncy. W e h ave
m odifie d th e re port to addre s s te ch nicalcom m e nts .




                                                    15

A PPEND ICES

                               A PPEND IX A



SSA ’
    S CO M M ENTS TO D RAFT REPO RT




                A -1

                                                                                       A PPEND IX B



                  PRO JECTED CO ST SA VINGS


Bas e d on th e inve s tigation, th e O ffice of th e Ins pe ctor Ge ne ral(O IG)de te rm ine d
w h e n an individualinitial  l
                              y faile d to m e e t th e re s ide ncy re q uire m e nts and total   e d al
                                                                                                        l
paym e nts m ade be tw e e n th is m onth and th e m onth th e inve s tigation took pl          ace to
de te rm ine th e am ount of th e ove rpaym e nt. An e xam pl       e w il      p il
                                                                           lh e l   lus trate th is
point. O IG de te rm ine d th at an individualw as l      iving in M e xico as of
D e ce m be r 1, 19 9 4. Th e inve s tigation took pl   ace in January 19 9 7. A s s um ing th e
paym e nt w as $29 5 a m onth for th e e ntire pe riod, th e ove rpaym e nt w oul          d total
$7,670 (26 x $29 5) for th is individual      .

O IG us e d th e m onth ly paym e nt am ount for an individualand m ul      tipl
                                                                               ie d it by 60 to
de te rm ine th e 5-ye ar cos t s avings for th e individual . Us ing th e above e xam pl  e,
th e 5-ye ar cos t s avings as s ociate d w ith th is individualw oul d be
$17,700 (60 x $29 5).

O IG totale d allove rpaym e nts and cos t s avings for th e 153 s us pe nde d re cipie nts to
arrive at th e $2,9 32,516 in proje cte d cos t s avings .




                                                 B-1

                                                                                  A PPEND IX C



            M A JO R REPO RT CO NTRIBUTO RS


   O ffice of th e Ins pe ctor Ge ne ral

   W il
      liam Fe rnande z, D ire ctor, Program Audits (W e s t)


   Brian Pattis on, D e puty D ire ctor


   El
    s ie Ch ais s on, Se nior Eval

                                 uator


   Ge orge D e Luna, Se nior Eval

                                uator

For Additionalcopie s of th is re port, pl  e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral s Publ
          ’                        is t at (410)9 66-9 135. Re fe r to Com m on
                ic A ffairs Spe cial
Ide ntification Num be r A -06-9 7-22008.




                                              C-1

                              A PPEND IX D



SSA O RGAN IZ A TIO NA LCH ART





              D -1

